Orrick, Herrington & Sutcliffe LLP

51 West 52nd Street
New York, NY 10019-6142

June 25, 2021

+1 212 506 5000
orrick.com

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

E. Joshua Rosenkranz

E jrosenkranz@orrick.com
D +1 212 506 5380
F +1 212 506 5151

Unicolors, Inc v. H&M Hennes & Mauritz, LP, No. 20-915

Dear Mr. Harris,
I represent Petitioner Unicolors, Inc. in the above-captioned case.
I am writing to request an extension of time for filing the briefs in this
case, as follows:
Petitioner’s Brief and Joint Appendix: August 3, 2021
Respondent’s Brief:
September 21, 2021
Reply Brief:
October 21, 2021
Respondent H&M Hennes & Mauritz, LP has consented to this
proposed schedule, which would allow the case to be set for argument
during the November sitting. Please let me know if you need additional
information, and thank you very much for your time and assistance in
this matter.
Very truly yours,
/s/ E. Joshua Rosenkranz
E. Joshua Rosenkranz
cc: Counsel for Respondent

